                                    UNITED STATES DEPARTMENT OF EDUCATION 

                                                              O"IC'E 0> l'iSPEC'TOR GENERAL 


                                                                          JAN 3 1 'lJJ7

FINAL MANAGEMENT INFORMATION REPORT
State and Local No. 07 -03

To: 	                 Anne Campbell
                      ChiefofStaIT
                      Office of Elementary and Secondary Education

From: 	               Helen Lew              J-{l/~ W
                      Assistant lnspector General for Audit Services

SUbject: 	            Controls Over Hurricane Education Recovery Funding
                      Control Number ED-OIGIX19G0003

This purpose of this Final Management Information Report is to provide the U.S. Department
of Education (Department), Office of Elementary and Secondary Education (OESE), with
information that may be beneficial in ensuring Hurricane Education Recovery Act (Act) funds
are appropriately expended. The objective of our audit was to assess the adequacy of controls
over funding for three programs authorized under the Act - Immediate Aid to Restart School
Operations, Temporary Emergency Impact Aid for Displaced Students, and Assistance for
Homeless Youth. Congress initially appropriated $1.4 billion for these programs. OUf review
was limited to the initial implementation phase of these programs, or from enactment of the Act
on December 30,2005, through allocation of initial funding as of June 19,2006.' We may
perform additional work at a future date to evaluate subsequent activities under the grants.

In accordance with the Freedom oflnfonmation Act (5 U.S.c. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
infonnation contained therein is not subject to exemptions in the Act.



                                                              BACKGROUND 



The Act was passed in response to the impact of Hurricane Katrina and Hurricane Rita on
students who attended schools in the affected areas. The Act provides aid to schools located in
Federally declared disaster areas to help them reopen as quickly as possible, and provides aid to
schools that enrolled students displaced by the hurricanes.




I On June 15, 2006, President Bush signed into law the Emergency Supplemental Appropriations Actfor Defense.
the Global War on Terror, and Hurrican e Recovery, 2006. This Act appropriated an additional $235 million for the
Temporary Emergency Impact Aid for Displaced Students program.



             O'lr miuiOl! i$ 10 f'II$"re t'qulI/lIITl'n 10 ('dIINl(iQ" IImllO prOmQl1' t'd"cII/io"lll ('XCi'lIl'nCt' Ihro,,~"o'" lilt' (l,'lI/ioll.
Final Management Infonnation Report
ED-OIGIX19G0003                                                                Page 2 of 10

OESE is responsible for administering the programs we reviewed. A brief description of each
program is provided below:

       • 	 Immediate Aid to Restart School Operations (Restart) - The purpose of this program
           is to assist school administrators and personnel with expenses related to the restart of
           operations and reenrollment of students in elementary and secondary schools.
           Congress appropriated $750 million for the program to assist areas in Alabama,
           Louisiana, Mississippi, and Texas, where a major disaster was declared due to
           Hurricane Katrina and/or Hurricane Rita. The Act does not specify a deadline for the
           expenditure of Restart funds by public or non·public schools. However, the
           Department has issued guidance stating that teacher salaries and utility costs for non­
           public schools may only be paid using Restart funds from the date services are
           provided through December 31, 2006, or through the end of the school year in which
           the school reopens.

       • 	 Temporary Emergency Impact Aid for Displaced Students fEIA) - The purpose of
           this program is to enable State Educational Agencies (SEAs) to make emergency
           impact aid payments to eligible Local Educational Agencies (LEAs), Bureau of
           Indian Affairs (BIA) funded schools, and non-public schools, to provide for the
           instruction of displaced students. Congress initially appropriated $645 million for the
           program to assist all States serving displaced students. Funds received under the ElA
           program must be obligated by September 30, 2006.

       • 	 Assistance to Homeless Youth CHY) The purpose of this program is to provide
           assistance to LEAs serving homeless children and youth displaced by Hurricane
           Katrina and/or Hurricane Rita. Funds must be used to address the educational and
           related needs of these students consistent with the McKinney· Vento Homeless
           Assistance Act. Congress appropriated $5 million for the program. Funds received
           under the HY program must be obligated by September 30,2007.

See Attachment A for details on the Department's allocations, and funds drawn down by the
States for each of the programs through June 30, 2006.




                      OBSERVATIONS AND SUGGESTIONS 



In order to assess the adequacy of controls over funding for the programs, we focused our review
on the following three areas:

   1. 	 Adequacy of guidance and other communication issued,
   2. 	 Appropriateness of funding allocation methodologies used, and
   3. 	 Development and implementation of monitoring plans.
Final Management Information Report
ED-OIG/X 19G0003                                                               Page 3 oflO

Adequacy of Guidaoce and Other Communication:

We found the Department issued timely guidance and other information consistent with
legislative requirements. The Department responded quickly to questions and requests for
clarification. and communicated information effectively through use of the Hurricane Help for
Schools website, conference calls, site visits, and other means. The Department coordinated
efTorts with other agencies as needed to provide further guidance and clarification, and exercised
due diligence in its policy decisions. See Attachment B for a chronology of guidance and other
communications provided by the Department.

Appropriateness of Funding Allocation Methodologies:

We found the Department's allocation methodologies were appropriate and reasonable, in
compliance with the requirements and flexibilities in the Act, and the calculations made were
materially accurate. We found that Restart program officials validated data provided by the
SEAs with similar data from the prior school year to obtain assurance of the accuracy of the data.

OESE program officials did not obtain supporting data to provide assurance of the accuracy of
the displaced student counts used as the basis for allocations under both the EIA and HY
programs prior to the allocation of funds. The Department instead relied upon information and
certifications provided by the SEAs, which the SEAs received from the LEAs, BIA-funded
schools, and nonpublic schools. Unlike the Restart program, information from prior years or
other sources was not readily available for comparison with SEA submissions. Counts of
displaced students are unprecedented and resulted from significant natural disasters. No data
currently compiled by the Department is comparable.

However, we noted the worksheet used during EIA monitoring site visits includes a step to verify
counts reported for each quarter by comparing the numbers on the individual LEA applications
to the total displaced student count on the SEA application. We reviewed two completed site
visit reports and found that when a discrepancy was noted, OESE asked the State to provide
additional infonnation to support the count submitted to the Department. These monitoring steps
provide some assurance that funding allocations were based on accurate data.

Development and Implementation of Monitoring Plans:

We determined that monitoring activities, through site visits, conference ca1ls, and other contacts
with the SEAs, LEAs, and others, were ongoing for all three programs. Department officials
also internally distributed periodic reports on the request and receipt of funds by the states
through the Department's Grant Administration and Payments System. The Department worked
with the Office of Inspector General (OIG) to include requirements for review of the programs in
the Compliance Supplement used by state auditors and independent public accountants when
conducting single audits. We also noted Restart program officials requested information
regarding the State's planned distribution methodologies and efforts being made to ensure
compliance with the Restart requirements and accountability for the use of Restart funds.
Final Management Information Report
ED-OIGIX 19G0003                                                              Page 4 of 10

In January 2006, Department officials stated they were developing monitoring plans for all three
programs. However, staff stated the emphasis at that time was on issuing initial guidelines and
allocating the funds. As of May 2006, OESE staff developed plans for monitoring all three
programs. The Restart monitoring plan was developed in February 2006, and the EIA and HY
monitoring plans were developed in May 2006. We found that these plans, if implemented,
would provide assurance relating to compliance with legislative and regulatory requirements.
For Restart and HY, the plans also include verification of the appropriateness of use of funds.
However, we found that this is currently not identified as an explicit step in the ElA monitoring
plan. Reviewing grantee expenditure reports may provide further assurance that funds are being
expended appropriately in accordance with legislative and regulatory requirements.

Although not specifica.lly identified as a procedure step in any of the monitoring plans, we
determined that officials with each program are considering including the review of A-133 single
audit reports in their plans. These audits, mandatory for all entities receiving over $500,000 in
Federal funds in a given year, are a valuable resource for information on the appropriateness of a
grantee ' s expenditure of funds. A comprehensive review will help alert program staff to any
compliance, programmatic, andlor financial management issues identified in audits of the entity.


Suggestions:

We encourage the Department to continue to obtain supporting information for the displaced
student counts submitted by the SEAs during monitoring visits, to help ensure that funds
allocated for the EIA and HY programs were appropriate. We encourage the Department to
investigate any questionable counts, and take corrective action to reallocate obligations or
request funds be returned as appropriate.

As single audit results become available, we encourage the Department to incorporate review of
the audit results into the monitoring plan for each program. For EIA, we also encourage the
evaluation of grantee expenditure reports during monitoring visits to provide assurance that
funds are being spent appropriately.




                   OIJ.JECTlVE, SCOPE, and METHODOLOGY


The objective of our audit was to assess the adequacy of controls over funding for three of the
programs authorized under the Hurricane Education Recovery Act. To accomplish our objective,
we performed a review of internal control applicable to the Department's administration and
management of the initial appropriations under the programs. We reviewed relevant Office of
Management and Budget circulars, requirements in the Education Department General
Administrative Regulations, applicable sections of the Elementary and Secondary Education Act,
and Standards for Internal COfllrol in the Federal Government published by the Government
Accountability Office. We reviewed the legislation, guidance, communications, and other
materials provided by Department staff or posted on its Hurricane Help for Schools website. We
Final Management Information Report
ED-OIGIXI 9G0003                                                               Page 5 of 10
conducted interviews with Department officials to obtain information and an understanding of
the programs.

In evaluating these programs, we employed sampling to evaluate the accuracy of the
Department's allocations of funding. For our review of the Restart program, incremental
sampling was used to verify that data from the National Center for Education Statistics (NCES)
was accurately reported by the Department in its analysis of student counts for closed schools.
To do this, wejudgmentally selected every 10'h school for a sample of IO percent of the public
schools and 10 percent of the non-public schools reported as closed in each State and confirmed
the student enrollment data contained in NCES. We employed this sampling method to obtain a
representative, unbiased sample to evaluate the accuracy of the Department's process. We found
that the data matched exactly for all of the schools confirmed.

We employed judgmental sampling in our review of allocations made under the EIA program.
Based on data provided by the Department, we determined 8 of the 50 SEAs that applied for
funds under the program accounted for over 90 percent of the total number of displaced students
reported for the first two quarters. Validation of the allocations to only these eight states was
selected to ensure the accuracy of the largest amount of funding provided. We compared the
allocations made by the Department to the student counts on the SEA applications received and
found that the allocations were materially accurate. We noted one immaterial error. and brought
it to the attention ofOESE staff who stated they would correct the error in a subsequent
allocation.

We did not perform any sampling specific to the HY program, as EIA data was used to
determine States' allocations under this program. However. to validate the accuracy of the
calculations used to allocate funds, we compared award data to previously provided displaced
student counts. The Department stated that it allocated funds to the states that reported over
5,000 total displaced students in the first two quarters. We confirmed this methodology by
evaluating the ErA allocation worksheet to verify that only states that met this criterion were
included in the HY allocations. We further compared data in the ErA allocation worksheet to
source data from initial applications and noted no exceptions.
We relied on computer-processed data obtained from OESE to verify student enrollment totals
and NCES data. This data included worksheets OESE developed to determine whether 2004­
2005 school year totals, as reported by the States, were reasonable when compared to the NCES
data. We verified the completeness and accuracy of this data by performing our own comparison
ofNCES data for a sample of schools with that in the OESE worksheets. We also validated the
figures in the OESE-developed worksheets to applications received from the states that were the
basis of the EIA and HY funding allocations. Based on our testing, we concluded that the
computer-processed data were sufficiently reliable for the purposes of our audit.

We conducted fieldwork at Department offices in Washington. DC, during the period February
24,2006, through July 6, 2006. We provided OESE officials with information that would be
presented in a draft Management Information Report during an exit conference held on October
4,2006. We reflected their comments, as appropriate, in the draft report. OESE did not provide
any further comments on the draft report that was subsequently issued. Our audit was performed
in accordance with generally accepted government auditing standards appropriate to the scope of
the review described above.
Final Management Information Report
ED-OIGIX19GOOO3                                                          Page 6 oflO

Should you have any questions. please contact Michele Weaver-Dugan. Director. Operations
Internal Audit Tearn, at (202) 245-6941.

Attachments

cc:    Hudson La Force. Special Counselor to the Secretary
       Dolores Warner, Audit Liaison Officer, OESE
Final Management Information Report
ED-OIG/X 19GOOO3                                                                             Page 7 oflO

                  Attachment A: Hurricane Education Recovery Act Funding
                                               as of June 30, 2006

The following data was extracted from a report provided by the Office of the Chief Financial
Officer. "Amount Obligated" represents the amounts allocated by the Department. "Amount
Expended" represents amounts drawn down by the States.


         Immediate Aid to Restart School Operations                     Amount                Amount
            FY2006 Appropriation ­ 5750,000,000                        Obli2ated             Expended
        Alabama                                                       53,750,000.00         51 ,037,089.63
        Louisiana                                                   $445,604,439.00        $20,585,363.75
        Mississippi                                                 $222,492,681.00        $91 ,756,529.40
        Texas                                                        $78,152,880.00        $25,582, 108.67
         Totals as of June 30 2006                                  $750000000.00         5\38961 091.45


        Assistance for Homeless Youtb                                    Amount               Amount
               FY2006 ADDroDrlatlon = S5 000 000                        ObU.ated             EXDended
        Alabama                                                          $247,065.00                $0.00
        Arkansas                                                         $107,160.00          $107,000.00
        Florida                                                          $196,433.00                $0.00
        Georgia                                                          $389,087.00                $0.00
        Louisiana                                                      $1,563,787.00                $0.00
        Mississippi                                                      $687,357.00               598.32
        Tennessee                                                        $122,454.00            14,637.52
        Texas                                                          $1 ,686,657.00               $0.00
         Totals as of JUDe 30 2006                                     55 000 000.00          SI22235.84


        Temporary Emergency Impact Aid for
        Displaced Students                                               Amount               Amount
              FY2006 ADDrODrlatlon = 5880 000 000'                      ObU.ated             EXDeuded
        Alaska                                                           $160,695.00          $109,750.00
        Alabama                                                       $26,722,410.00       $19,108,250.00
        Arkansas                                                      $11 ,104,072.00      $11 ,104,072.00
        Arizona                                                        $1 ,769,550.00       $1 ,210,220.00
        California                                                     $3,425,461.00                 $0.00
        Colorado                                                       $3 ,156,392.00       $2,196,642.34
        Connecticut                                                      $343,836.00          $243 190.00
        District of Columbia                                             $291 ,000.00                $0.00
        Delaware                                                         SI66,442.00            $12,000.00
        Florida                                                       $19,866,404.00       $16,171,809.00




2 The total appropriation amount includes the $645 million originally appropriated under the Hurricane Education
Recovery Act and the additional $235 million appropriated on June 15. 2006. under the Emergency Supplemental
Appropriations Actfor Defense. the Global War on Terror. and Hurricane Recovery, 2006. for a total ofS880
million. Our scope included only the original appropriated funds, so this information is presented as of that time
period.
Final Management Information Report
ED-OIGIX19GOO03                                               Page 8 of 10


      Temporary Emergency Impact Aid for       Amount          Amount
      Displaced Students (Continued)          Obligated       Expended
      Georgia                               $40,368,863.00  $28,592,373.59
      Iowa                                     $932,137.00     $696,750.00
      Idaho                                      $37,235.00          $0.00
      Illinois                               $3,295,749.00   $2,240,500.00
      Indiana                                $2,027,168.00   $1 278,500.00
      Kansas                                 $1 ,204,804.00    $910,000.00
      Kentucky                               $2 740,576.00   $1964,687.50
      Louisiana                            $212,202470.00   $82827,992.70
      Massachusetts                            $781,017.00     $489,250.00
      Maryland                               $3,043,302.00   $2 302 750.00
      Maine                                    $162,609.00      $90,250.00
      Michi~an                               $2,054,254.00           $0.00
      Minnesota                              $1,007,292.00     $850843.22
      Missouri                               $4,239,666.92   $4,150,483.00
      Mississippi                           $75,243,783.00  $32,741,993.32
      Montana                                    $84,319.00     $60,750.00
      North Carolina                         $5,726,124.00   $1,644,134.74
      North Dakota                               $21,900.00     $19,000.00
      Nebraska                                 $638838.00      $444,586.09
      New Hampshire                            $150,568.00     $150,568.00
      New Jersey                             $1 044 922.00     $373,631.05
      New Mexico                               $385,994.00           $0.00
      Nevada                                 $1,104,873.00      $48,888.00
      New York                               $1,219,027.00     $207,750.00
      Ohio                                   $2,254,384.00   $1,507,421.50
      Oklahoma                               $3,579,627.00   $3 579 627.00
      Oregon                                   $308,526.00     $126,347.25
      Pennsylvania                           $1,364,945.00           $0.00
      Rhode Island                             $170,276.00      $27,949.97
      South Carolina                         $3,106,020.00   $3,106,020.00
      South Dakota                             $138,798.00     $101,750.00
      Tennessee                             $13,947,135.00   $5,654,532.38
      Texas                                $185 ,785,348.00 $78,243,251.84
      Utah                                     $395,855.00           $0.00
      Virginia                               $4,636,575.00   $3,298 185.00
      Vermont                                    $32,850.00          $0.00
      Washington                             $1077,508.00      $734,827.52
      Wisconsin                              $1,068,464.00     $756,000.00
      West Virainia                              $78,570.00     $25,000.00
      Wyoming                                    $58,035.00     $40,000.00
       Totals as of June 30 2006           $644 726 668.92 $309,442,527.01
Final Management Information Report
ED-OIGIXI 9GOO03                                                                          Page 9 oflO

                   Attachment B: Chronology of Guidance Issued and 

                          Other Significant Communications' 


       Date                                                     Description
December 20, 200S               Critical items for SEAs to Know Early for Implementation of
                                Emergency Impact AidJor Displaced Students issued.
December 30, 2005               Enactment of the Hurricane Education Recovery Act.
December 30, 2005               Letter from Secretary of Education to State School Omcers regarding
                                passage of the Act and providing information on the new grant
                            I   programs.
January 5, 2006                 Email sent to States regarding the status of Emergency Impact Aid
                                application documents, student count dates, and anticipated payment
                                amounts for the first Quarter.
January 6, 2006                 Frequently Asked Questions (F AQ) issued for the Restart Program.
January 10, 2006                FAQ issued for the Homeless Youth program.
January II, 2006                Dear Colleague Letter issued announcing that ED is accepting grant
                                applications from State Educational Agencies under the Emergency
                                Impact Aid and the Homeless Youth programs.
January 12, 2006                Notice in the Federal Register announcing availability of funds and
                                application deadline for the Emergency Impact Aid and the Homeless
                                Youth prolU'ams.
January 12, 2006                FAQ Volume I issued for the Emergency Impact Aid program.
January 20, 2006                Email sent to States regarding income criteria to be used in determining
                                eligibility of non-pUblic school students for Emergency Impact Aid
                                funds.
February I, 2006                Uses ofFunds under the Restart Program issued.
February 2, 2006                FAQ Volume I Revised issued for the Emergency Impact Aid prolU'am.
February 10, 2006               Follow-up email with answers to States' supplemental questions on
                                Uses of Funds under the Restart Program sent to State officials.
March 5, 2006                   Email sent to States receiving funds under the Emergency Impact Aid
                                program advising them on the recording of funds, and urging them to
                                maintain separate accounts at the State and local levels.
March 16, 2006                  Allowable Uses ofRestart Funds For Private Schools issued.
March 16, 2006                  Email sent to States receiving funds under the Emergency Impact Aid
                                program informing them that the legislation prohibits Local Education
                                Agencies applying for regular Impact Aid funds from claiming the
                                same students for both of these programs (included a list of applicants
                                for the regular Impact Aid Program for FY 2007).
March 24, 2006                  Conference call between the Department, States, and private school
                                officials regarding questions and/or concerns on Allowable Uses of
                                Restart Funds for Private Schools.




3This attachment presents significant communications, but does not represent all communication regarding the
programs.
Final Management Information Report
ED-OIO/X I900003                                                        Page 10 of 10

         Date                                      Description
March 29, 2006         FAQ Volume II issued for the Emergency Impact Aid program.
April 19, 2006         Emergency Impact Aid monitoring site visit to Washington, DC.
April 24, 2006         Revised Allowable Uses ojRestart Funds For Private Schools issued.
April 25, 2006        Conference call between the Department, States, and private school
                      officials regarding questions and/or concerns on Revised AHowable
                      Uses ofRestart Funds for Private Schools.
May 8, 2006            Emergency Impact Aid monitoring site visit to Maryland.
May 9, 2006           Emergency Impact Aid monitoring site visit to Virginia.
May 9, 2006           Follow-up email with answers to States' supplemental questions on
                      Revised A/Jowable Uses ofRestart Funds for Private Schools sent to
                      State officials.
May 9, 2006           Conference call between the Department, Archdiocese of New Orleans,
                      and Louisiana Department of Education regarding the administration of
                      Restart funds to private schools.
May 11-12,2006        Joint Restart/Emergency Impact Aid monitoring site visit to Louisiana.
May 13, 2006          Email sent to States receiving funds under the Emergency Impact Aid
                      program reiterating some of the guidance provided on allowable uses of
                      funds, as well as tracking and documenting expenditures, particularly at
                      the local level.
May 19,2006           Emergency Impact Aid monitoring site visit to North Carolina.
May 22-23, 2006       Joint RestartlEmergency Impact Aid monitoring site visit to
                      Mississippi. Homeless Youth also visited Tennessee during this week.
May 23, 2006          Emergency Impact Aid monitoring site visit to Michigan.
May 25, 2006          Emergency Impact Aid monitoring site visit to Missouri.
June 11-12,2006       Joint Restart/Emergency Impact Aid monitoring site visit to Texas.
June 29, 2006         Emergency Impact Aid monitoring site visit to Tennessee.
